Supreme Court, U.S.
FILED

NOV 1 6 2D2U
No.
OFFICE OFTHECLEFIK

IN THE
SUPREME COURT OF THE UNITED STATES
XUEJIE HE
-PETITIONER
vs.

HAIRONG XUE,
-RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
STATE OF NEW YORK
COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

XUE JIE HE , Pro Se
40 Ann Street
New York, New York 10038

3472689418

QUESTION PRESENTED
Whether it violates the equal protection clause of the Fourteenth Amendment to the
U.S. Constitution,
1. The petitioner does not owe the statement and rent, the deposit should be
returned, under GOB - § 7-108( 1 )(e) ?
2. Can the trial court destroy the trial transcripts?

LIST OF PARTIES
[•] All parties appear in the caption of the case on the cover page.

RELATED CASES
Wallace v. Pastore, 742 A .2d 1090 (Pa. Super. 1999)

INDEX TO APPENDICES
APPENDIX A

ORDERED, the motion for poor person relief &c. is dismissed, that the
motion for leave to appeal is dismissed that this Court does not have
jurisdiction(see NY Const, art VI, § 3; CPLR 5602);
[Mo.No.2020-396] State Of New York Court Of Appeals [Hon. Janet
DiFiore, presiding]. [Entered:05/17/20]

APPENDIX B

An arbitrator's decision, denied, both sides consented to arbitration,
the arbitration dismissed the matter after a trial.
[SC 890/2018] Civil Court of the City of New York County of New York.
[Hon.Joan M. Kenney]. [Entered:08/16/18]

APPENDIX C

ORDERED that the motion for a poor person to leave to appeal is
denied as academic. The motion for reargument is denied;
[Mo.No.2020-396] State Of New York Court Of Appeals [Hon. Janet
DiFiore, presiding]. [Entered:09/10/20]

APPENDIX D

NOTICE OF APPEAL. Document filed by Xuejie He (tp)
[SC 890/2018][Entered:09/06/18]

APPENDIX E

Plaintiff motion was denied. Plaintiff also failed to demonstrate that
vacatur of the award was proper under any of the grounds set forth in
CPLR 7511 [b] [1].
[570916/2018] Supreme Court of the Appellate Term, First Department
of New York. [Hon. Ling-Cohan J.P., Gonzalez, Cooper, JJ,] [Entered:
12/20/18]

APPENDIX F

Ordered that the motion for permission to reargue and / or leave to
appeal to the Appellate Division, First Department of New York is
denied.
[570916/2018] Supreme Court of the Appellate Term, First Department
of New York. [Hon. Ling-Cohan J.P., Gonzalez, Cooper, JJ,] [Entered
02/26/19]

APPENDIX G

Ordered that the motion for leave to appeal as a poor person is denied.
[M-1757] Supreme Court of the State of New York Appellate Division,
First Department. [Hon. Rosalyn H. Richter, Sallie Manzanet - Daniels,
Troy K. Webber, Cynthia S. Kern].[Entered:06/18/19]

APPENDIX H

Receipt of security deposit. [Entered:04/01/17]

APPENDIX I

Judgment in favor of He, Xuejie, total judgment $23320.63.
[SC 1097/2017] Civil the small Court of the City of New York County
of New York. [Arbitrator] [Entered:08/10/17]

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[• ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A._____ to the petition and is
[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[#] is unpublished.
The opinion of the______ State Of New York Court Of Appeals
________ court appears at Appendix A to the petition and is
[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[#] is unpublished.

JURISDICTION
[ • ] For cases from state courts:
The date on which the highest state court decided my case was Mav 17.2020 .
A copy of that decision appears at Appendix A.
[ ] A timely petition for rehearing was thereafter denied on the following date:
September 10.2020 and a copy of the order denying rehearing
appears at Appendix C______ .
The jurisdiction of this Court is invoked under 28 U.S.C. 1257(a)

1.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fourteenth Amendment to the United States Constitution (Section 1.)
Section 1. All persons bom or naturalized in the United States, and subject to the
juris-diction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
New York Consolidated Laws, General Obligations GOB - § 7-108(l)(e)
1. (e). Within fourteen days after the tenant has vacated the premises, the landlord
shall provide the tenant with an itemized statement indicating the basis for the
amount of the deposit retained, if any, and shall return any remaining portion
of the deposit to the tenant. If a landlord fails to provide the tenant with the
statement and deposit within fourteen days, the landlord shall forfeit any right
to retain any portion of the deposit.
9 U.S. Code § 10(3)
(3)where the arbitrators were guilty of misconduct in refusing to postpone the
hearing, upon sufficient cause shown, or in refusing to hear evidence pertinent
and material to the controversy; or of any other misbehavior by which the rights
of any party have been prejudiced;

2.

NY CPLR § 7511 (2015)(b)(l,)(ii)
(b) 1. (ii) partiality of an arbitrator appointed as a neutral, except where
the award was by confession; or
NY Penal Law § 190.25(1)
1. Impersonates another and does an act in such assumed character with intent to
obtain a benefit or to injure or defraud another;

STATEMENT OF THE CASE
1. This civil action is to claim deposit of lease by Petitioner Xuejie He, (“He”or”Petitioner,")
against Respondents Hairong Xue (“Xue” or “Respondents “) in violation New York
Consolidated Laws, General Obligations GOB - § 7-108(l)(e).
2. On April 1,2017, The respondent Hairong Xue impersonated Helen Xie's name to sign one
month rent and deposit receipt to petitioner, the day of check-in. [A-H],
3. On April 26,2017, The petitioner moved out, there is no outstanding payment, but Xue
refused to refund the deposit under the contract.
4. On May 15,2018, The petitioner filed a claim deposit again Index No.890/18 to Civil the
small Court of the City of New York County of New York.
5. On Junel4,2018, an arbitrator Mchil P Mcve dismissed Claim of petitioner in Civil the small
Court of the City of New York County of New York,
The arbitrator refused to hear evidence pertinent of petitioner:

3.

(a) The respondent fails to provide any the statement and deposit to the arbitrator.
(b)The petitioner provided Xue signed the receipt of rent and deposit on April 1,2017.[A-H]
(c) The losses of petitioner was $490 for finding Helen Xie, that the judgement Helen Xie
pay $2320.63 to petitioner for Index No. 1097/2017 on August 10,2017. [A-I].
6. On August 16,2018, The Civil the small Court Hon Joan M. Kenney denied arbitration award
vacated and, Civil the Small court destroys this trial transcripts. [A-B].
7. The petitioner filed a timely Notice of Appeal for arbitrator refused to hear evidence on
August 28,2018. [A-D].
8. On December 20,2018, Appellate Term of the Supreme Court, First Department denied
motion of arbitration award vacated of plaintiff. [A-E]
9. On February 26,2019, Appellate Term of the Supreme Court, First Department permission to
reargue and/or leave to appeal to the Appellate Division, First Department of New York is
denied. [A-F].
lO.On June 18,2019, Supreme Court of the State of New York Appellate Division, First Judicial
Department denied the motion of petitioner for a poor person to leave to appeal. [A-G].
11 .On May 17,2020, State Of New York Court Of Appeals dismissed the motion of petitioner
for a poor person to leave to appeal. [A-A].
12.0n September 10,2020, State Of New York Court Of Appeals denied the motion of
petitioner for reargument for a poor person to leave to appeal. [A-C],

4.

■C *.

13.WHEREFORE PLAINTIFF PRAYS for judgment against Respondent, and each of them as
follows:
For $ 2,023.5 general damages for Respondents' fraud, and for punitive damages according
to proof, and for reasonable the petitioner legal research‘s fees and costs incurred herein, and for
such other and further relief as the court may deem just and proper.

REASONS FOR GRANTING THE WRIT
REASONS FOR GRANTING THE WRIT was the lower Court of judiciary discrimination:
The lower Court dismissed the motion of Petitioner for a poor person to leave to appeal,
violates 28 U.S. C.§1915.
Has so far departed from the accepted and usual course ofjudicial proceedings, sanctioned such
a departure by a lower court, as to call for an exercise of this Court's supervisory power.

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

Date:

November 15. 2020

5.

